                            Office of the Inspector General

September 27, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Conversion of Benefits for Spouses After the Death of a Wage Earner (A-09-99-62009)


The attached final report presents the results of our audit. The objective of the audit
was to determine whether the Social Security Administration has adequate controls over
the conversion of benefits to ensure that spouses receive the highest benefit due after
the death of a wage earner.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                              James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




   CONVERSION OF BENEFITS
    FOR SPOUSES AFTER THE
   DEATH OF A WAGE EARNER

  September 2000   A-09-99-62009




AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


      Independence to determine what reviews to perform.

      Access to all information necessary for the reviews.

      Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                 EXECUTIVE SUMMARY


OBJECTIVE
The objective of this audit was to determine whether the Social Security Administration
(SSA) has adequate controls over the conversion of benefits to ensure that spouses
receive the highest benefit due after the death of a wage earner.

BACKGROUND
The Social Security Act (Act) provides benefits to spouses and divorced spouses of
retired or disabled workers. The Act also provides benefits to surviving spouses and
surviving divorced spouses of retired or disabled workers. In addition, a divorced
spouse of a nonbeneficiary is eligible for benefits under certain conditions. These
individuals, called independently entitled divorced spouses, may receive benefits even
though the worker is not retired or disabled. Generally, survivor benefits are about twice
as much as spousal benefits.

SSA relies on its automated systems to terminate payments to deceased beneficiaries,
convert eligible spouses to surviving spouses, and adjust benefits after the death of a
wage earner. In most cases, these actions are processed automatically. However,
when SSA’s automated systems are unable to perform such actions, alerts and
exceptions are generated. Actions that are partially processed by SSA’s automated
systems result in alerts while those that cannot be processed at all result in exceptions.
Both alerts and exceptions require manual processing in order to complete the actions.

Upon receipt of a death report, field offices (FO) and processing centers (PC) enter the
death information into SSA’s automated systems. The Terminating, Attainments,
Transfers, and Terminations program processes the termination and conversion
actions. The Death Alert, Control, and Update System (DACUS) matches the death
reports against SSA’s payment records to detect and prevent erroneous payments. The
Regular Transcript, Attainment, and Selection Pass (RETAP) program extracts data
from SSA’s beneficiary records and generates alerts for subsequent review.

In September 1998, SSA identified 804 individuals who received benefits as spouses
or divorced spouses but may have been entitled to higher benefits as surviving spouses
or surviving divorced spouses. As of December 16, 1999, SSA had converted
700 beneficiaries from spouses to surviving spouses and paid underpayments to these
individuals. Another 72 cases did not involve underpayments but required the deletion
of erroneous death data on SSA’s beneficiary records. Also, 18 cases were correctly
processed and 14 cases were pending development at the PCs.




                                           i
RESULTS OF REVIEW
SSA conducted a special project and determined that spouses and divorced spouses
did not always receive the highest benefit due after the death of a wage earner. The
project disclosed that SSA needs more effective controls to: (1) detect and prevent
errors in converting spouses to surviving spouses upon the death of a beneficiary, and
(2) identify independently entitled divorced spouses who were eligible for higher benefits
upon the death of a nonbeneficiary.

As a result, SSA paid underpayments totaling $22.3 million to 700 beneficiaries as of
December 16, 1999. The average underpayment was $31,921 and 15 underpayments
were over $100,000. In addition, because SSA’s special project was limited to
beneficiaries in current pay status, there are other spouses and divorced spouses who
died prior to identification by the Agency, resulting in potential underpayments to their
relatives or estates.

CONCLUSIONS AND RECOMMENDATIONS
Although we commend SSA for identifying and resolving the underpayments, the
Agency could improve its controls to ensure that spousal benefits are properly
converted to survivor benefits after the death of a wage earner. These controls should
address spouses and divorced spouses of deceased beneficiaries and independently
entitled divorced spouses of deceased workers who have not applied for benefits.
Accordingly, we believe that systems enhancements are necessary to detect and
prevent underpayments and provide reasonable assurance that all spouses and
divorced spouses receive the maximum benefits to which they are entitled. Therefore,
we recommend that SSA:

•	 Modify RETAP to identify all individuals receiving benefits as spouses or divorced
   spouses of deceased beneficiaries.

•	 Review these cases and take appropriate action to convert benefits for spouses and
   divorced spouses after the death of a wage earner.

•	 Modify DACUS to identify all individuals receiving benefits as independently entitled
   divorced spouses of deceased workers who have not applied for benefits.

•	 Verify death information for these nonbeneficiaries and take appropriate action to
   convert benefits for independently entitled divorced spouses after the death of a
   wage earner.

AGENCY COMMENTS
In its response, SSA agreed with all of our recommendations. SSA acknowledged that
modifications to RETAP are needed to enhance controls over the conversion of benefits
and ensure that spouses (including those in suspended payment status) receive the


                                           ii
highest benefit after the death of a wage earner. SSA is currently in the process of
determining what modifications are needed, developing the output format, and resolving
how FOs will process and review the output. SSA estimates these issues will be
resolved by December 2000 and RETAP will be modified within 90 days thereafter.
SSA agreed to review the cases identified by the modifications to RETAP and ensure
that appropriate action is taken to convert benefits for spouses and divorced spouses
after the death of a wage earner.

Beginning September 30, 2000, SSA agreed to implement modifications to DACUS
(Release 2) to identify and generate alerts for all individuals receiving benefits as
independently entitled divorced spouses of deceased workers who have not applied for
benefits. Upon receipt of a death report for a wage earner who has not yet filed for
Old-Age, Survivors and Disability Insurance (OASDI) benefits, DACUS will: (1) search
the Master Beneficiary Record (MBR) for any independently entitled divorced spouses
on the worker’s earnings record; and (2) generate an alert to the field office to convert
eligible payments to survivor benefits. SSA stated that it would issue interim
instructions for the FOs before this workload is generated.

SSA also provided technical comments that have been incorporated into the final report.
The full text of SSA’s comments is included in Appendix B.




                                          iii
                        TABLE OF CONTENTS


                                                                                                              Page


EXECUTIVE SUMMARY..........................................................................................i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 6


    DELAYS IN CONVERSION OF BENEFITS RESULTED IN

    UNDERPAYMENTS.......................................................................................... 7


    �    Spouses and Divorced Spouses of Deceased Beneficiaries ....................... 7

    �    Independently Entitled Divorced Spouses of Deceased Workers ................ 9


CONCLUSIONS AND RECOMMENDATIONS .................................................... 11


APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments

                                INTRODUCTION


OBJECTIVE
The objective of this audit was to determine whether the Social Security Administration
(SSA) has adequate controls over the conversion of benefits to ensure that spouses
receive the highest benefit due after the death of a wage earner.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
under title II of the Social Security Act (Act). The Act provides benefits to spouses of
retired or disabled workers.1 Such benefits are payable if the spouses are age 62 or
over or have a child of the worker in their care who is under age 16 or disabled.

The Act also provides benefits to divorced spouses of retired or disabled workers.2
Such benefits are payable if the divorced spouse is age 62 or over and was married to
the worker for at least 10 years before the divorce became final. Furthermore, if the
worker is age 62 or over, a divorced spouse may receive benefits even though the
worker is not retired or disabled. These individuals, called independently entitled
divorced spouses, are eligible for benefits if they are age 62 or over, were married to
the worker for at least 10 years, and have been divorced for at least 2 years.

In addition, the Act provides benefits to surviving spouses (i.e., widows and widowers)
of retired or disabled workers.3 Upon the death of the worker, such benefits are
payable if the surviving spouses are age 60 or over, are disabled and age 50 or over,
or have a child of the worker in their care who is under age 16 or disabled.

The Act also provides benefits to surviving divorced spouses of retired or disabled
workers.4 Upon the death of the worker, such benefits are payable if the surviving
divorced spouse was married to the worker for at least 10 years before the divorce
became final. The surviving divorced spouses must be age 62 or over or have an
eligible child of the worker in their care.




1
    Section 202(b)(1), 42 U.S.C. § 402(b)(1) and Section 202(c)(1), 42 U.S.C. § 402(c)(1).
2
    Ibidem.
3
  Section 202(e)(1), 42 U.S.C. § 402(e)(1); Section 202(f)(1), 42 U.S.C. § 402(f)(1); and Section
202(g)(1), 42 U.S.C. § 402(g)(1).
4
    Ibidem.


                                                      1
Computation of Social Security Benefits

The primary insurance amount (PIA) is the amount from which all Social Security
benefits payable on a worker’s earnings record are derived, including monthly benefits
for workers and their dependents and survivors. The PIA is based on a worker’s
average lifetime earnings and represents the maximum amount payable at the full
retirement age.5 Reduced benefits are available based on the number of months for
which benefits were received prior to the full retirement age.

Generally, survivor benefits are about twice as much as spousal benefits. At their full
retirement age, spouses and divorced spouses are entitled to receive 50 percent of the
worker’s PIA. For early retirement of the spouse at age 62, benefits are reduced to
37.5 percent of the worker’s PIA. However, at their full retirement age, surviving
spouses and surviving divorced spouses are entitled to receive 100 percent of the
worker’s PIA. For early retirement of the surviving spouse at age 60, benefits are
reduced to 71.5 percent of the worker’s PIA.

Unlike retirement benefits, spousal and survivor benefits are not earned benefits. As a
result, individuals may become entitled to benefits both as a retired worker and as the
spouse or survivor of another worker (i.e., their husband or wife). Although these
individuals are “dually entitled” on two earnings records, they do not receive the sum
of both benefits. Instead, they receive a benefit equal to the higher of (1) their own
retirement benefit, or (2) their spousal or survivor benefit.

Reporting and Processing of Death Information

SSA receives reports of death from various sources, such as friends and relatives,
funeral homes, financial institutions, postal authorities, and Federal and State agencies.
Upon receipt of a death report, SSA is required to take prompt action to terminate
benefits to the deceased individual and recover any payments made after the date of
death. SSA is also required to recalculate payments to other individuals who may be
eligible for higher benefits. These actions, called conversions, are necessary to ensure
that individuals receive the maximum benefits to which they are entitled.

SSA relies on its automated systems to terminate payments to deceased beneficiaries,
convert eligible spouses to surviving spouses, and adjust benefits after the death of a
wage earner. In most cases, these actions are processed automatically. However,
when SSA’s automated systems are unable to perform such actions, alerts and
exceptions are generated. Actions that are partially processed by SSA’s automated
systems result in alerts while those that cannot be processed at all result in exceptions.
Both alerts and exceptions require manual processing in order to complete the actions.




5
  For the period covered by our audit, the full retirement age was age 65. However, beginning in 2000,
the full retirement age will be gradually increased until it reaches age 67 in 2022.


                                                   2
Field offices (FO) and processing centers (PC) are responsible for entering the death
information into SSA’s automated systems. For beneficiaries, death information
is recorded on the Master Beneficiary Record (MBR), a master file that contains
payment data about each individual who has received Social Security benefits. For
beneficiaries and nonbeneficiaries, death information is recorded on the Numident, a
master file that contains personal identifying data about each individual who has been
issued a Social Security number.

The Death Alert, Control, and Update System (DACUS) matches the death reports
against SSA’s payment records to detect and prevent erroneous payments after death.
DACUS compares the death information received from external and internal sources to
the MBR and Numident. If payments have been made after the death of the beneficiary
or there is conflicting information about the date of death, DACUS generates an alert.
DACUS is programmed to identify deceased beneficiaries, not independently entitled
divorced spouses of deceased nonbeneficiaries. FOs are responsible for resolving
alerts, verifying deaths, and updating records, as appropriate.

The Terminating, Attainments, Transfers, and Terminations (TATTER) program
processes the death termination actions and converts eligible spouses to surviving
spouses after the death of the wage earner. TATTER also adjusts payment amounts
for all individuals receiving benefits on the earnings record of the deceased wage
earner. However, for complex cases (e.g., dually entitled spouses receiving benefits on
more than one earnings record), TATTER generates an exception. In these instances,
TATTER is unable to process the conversion actions. PCs are responsible for resolving
exceptions, updating records, and adjusting benefits, as appropriate.

SSA uses a beneficiary identification code (BIC) to identify each type of beneficiary on
the MBR. For example, spouses are assigned a BIC of “B” while aged surviving
spouses are assigned a BIC of “D” and young surviving spouses with a child in-care
are assigned a BIC of “E.”

Identification of Spouses with Deceased Wage Earners

In September 1998, SSA’s Office of Research, Evaluation, and Statistics (ORES)
identified 804 individuals in current pay status who received OASDI benefits as spouses
or divorced spouses but may have been entitled to higher benefits as surviving spouses
or surviving divorced spouses.6 Although SSA recorded a date of death for the wage
earner on the MBR or Numident, the spousal benefits had not been converted to
survivor benefits. ORES subsequently referred these individuals to SSA’s Office of
Quality Assurance and Performance Assessment (OQA) for review.


6
  In June 1999, we provided comments to SSA on the selection criteria used by ORES to identify
spouses who had not been converted to surviving spouses after the death of the wage earner. In
July 1999, ORES identified an additional 340 individuals who received OASDI benefits as spouses or
divorced spouses but may have been entitled to higher benefits as surviving spouses or surviving
divorced spouses. These cases were not included as part of our audit.


                                                  3
In March 1999, OQA referred the 804 cases to the PCs for development. As of
December 16, 1999, SSA had converted 700 beneficiaries from spouses to surviving
spouses and paid underpayments to these individuals. Another 72 cases did not
involve underpayments but required the deletion of erroneous death data on the MBR or
Numident. Also, 18 cases were correctly processed and, therefore, did not require any
further action. An additional 14 cases were pending development at the PCs. The
results of SSA’s special project are summarized below.



                              Results of SSA’s Special Project
                                     As of December 16, 1999

       Spouses Converted to
        Surviving Spouses
           700 (87.1%)
                                                                         Erroneous Death Data
                                                                           on SSA's Records
                                                                               72 (9.0%)




                                                   Pending Development   No Action Necessary
                                                         14 (1.7%)            18 (2.2%)




SCOPE AND METHODOLOGY
To accomplish our objective, we:

     •	 reviewed the applicable sections of the Act and SSA’s Program Operations
        Manual System;

     •	 obtained queries from the MBR and Payment History Update System for selected
        beneficiaries;

     •	 conducted interviews with SSA employees from six PCs, including Northeastern
        program service center (PSC), Mid-Atlantic PSC, Great Lakes PSC, Western
        PSC, Mid-America PSC, and Office of Disability and International Operations
        (ODIO);7


7
    Renamed as the Office of Central Operations.


                                                   4
   •	 conducted interviews with SSA employees from various Headquarters
      components, including OQA, ORES, Office of Program Benefits, Office of
      Systems Requirements, and Office of Public Service and Operations Support;

   •	 obtained a legal opinion about SSA’s potential liability to pay underpayments to
      the estates or relatives of deceased beneficiaries;

   •	 obtained information about the processing of death information for beneficiaries
      and nonbeneficiaries through DACUS and TATTER; and

   •	 reviewed the selection criteria used by ORES to identify spouses who had not
      been converted to surviving spouses after the death of the wage earner.

The scope of our audit was limited to SSA’s controls and procedures necessary to
convert benefits for spouses and divorced spouses after the death of a wage earner.
Specifically, we reviewed the results of SSA’s special project to identify spouses
receiving benefits on the earnings records of deceased wage earners, process
conversion actions for eligible surviving spouses, and pay underpayments to these
individuals as of December 1999. Because SSA only retained summarized data for
the project, we did not verify the accuracy of that information.

We performed audit work in Baltimore, Maryland, and Richmond, California, between
April and December 1999. We conducted our audit in accordance with generally
accepted government auditing standards.




                                           5
                           RESULTS OF REVIEW


SSA conducted a special project and determined that spouses and divorced spouses
did not always receive the highest benefit due after the death of a wage earner. The
project disclosed that SSA needs more effective controls to: (1) detect and prevent
errors in converting spouses to surviving spouses upon the death of a beneficiary; and
(2) identify independently entitled divorced spouses who were eligible for higher benefits
upon the death of a nonbeneficiary.

As a result, SSA paid underpayments totaling $22.3 million to 700 beneficiaries as of
December 16, 1999. The average underpayment was $31,921 and 15 underpayments
were over $100,000. In addition, because SSA’s special project was limited to
beneficiaries in current pay status, there are other spouses and divorced spouses
who died prior to identification by the Agency, resulting in potential underpayments to
their relatives or estates. The following chart provides a distribution of the total
underpayments.



       Underpayments to Spouses8 of Deceased Wage Earners
       $6,000,000


       $5,000,000


       $4,000,000


       $3,000,000


       $2,000,000


       $1,000,000


              $0
                    Northeastern Mid-Atlantic Southeastern Great Lakes   Western   Mid-America   ODIO
                        PSC         PSC           PSC         PSC         PSC          PSC




8
    Underpayments to spouses include divorced spouses and independently entitled divorced spouses.


                                                           6
DELAYS IN CONVERSION OF BENEFITS RESULTED IN
UNDERPAYMENTS
In September 1998, SSA identified 804 spouses and divorced spouses in current
pay status with deceased wage earners on the MBR or Numident. Of this amount,
684 represented spouses and divorced spouses of deceased beneficiaries and
120 represented independently entitled divorced spouses of deceased workers who had
not applied for benefits. A total of 700 of these individuals were entitled to higher
benefits as surviving spouses or surviving divorced spouses.9 The underpayments
went undetected due to processing errors at the PCs and limitations in SSA’s
automated systems. A breakdown of these underpayments is depicted below.10



          Number of Underpayments by Processing Center
         90

         80                  Under $30,000
                             Over $30,000
         70

         60

         50

         40

         30

         20

         10

          0
              Northeastern Mid-Atlantic Southeastern Great Lakes   Western   Mid-America   ODIO
                  PSC         PSC           PSC         PSC          PSC         PSC




Spouses and Divorced Spouses of Deceased Beneficiaries

SSA needs to improve controls over the conversion of benefits for spouses and
divorced spouses after the death of a wage earner. The results of SSA’s special project
disclosed that 684 of the 804 individuals (85.1 percent) consisted of spouses and


9
  For the remaining 104 cases, 72 contained erroneous death data which did not affect benefit payments,
18 were correctly processed and did not require any further action, and 14 were pending development as
of December 16, 1999.
10
  Underpayments below $30,000 are processed by SSA’s automated systems while those above
$30,000 require manual processing by PC employees.


                                                       7
divorced spouses of deceased beneficiaries. Because SSA’s automated systems were
not programmed to identify errors in converting eligible spouses to surviving spouses
upon the death of a beneficiary, these individuals did not receive the maximum benefits
to which they were entitled.

TATTER processes death termination actions and converts eligible spouses to surviving
spouses after the death of the wage earner. TATTER also adjusts payment amounts
for all individuals receiving benefits on the earnings record of the deceased wage
earner. In most cases, these actions are processed automatically. However, for
complex cases, TATTER is unable to process the conversion actions. These cases
include wage earners with multiple spouses (i.e., a spouse and one or more divorced
spouses) and dually entitled spouses receiving benefits on more than one earnings
record. As a result, TATTER generates an exception and neither converts nor adjusts
benefits in such instances.

These exceptions require PC employees to manually process conversion actions and
recalculate benefit payments. SSA determined that PC employees did not take prompt
corrective action to resolve the exceptions. Specifically, these exceptions were either:
(1) not filed in the deceased worker’s case folder, (2) filed in the case folder but not
routed for review, (3) discarded because no action was deemed necessary, or
(4) partially processed (e.g., benefits were converted for the current spouse but not
the divorced spouse). Since the exceptions were not resolved in a timely manner, the
spouses and divorced spouses continued to receive spousal benefits rather than
survivor benefits until the conversion actions were subsequently processed.

For example, one spouse was underpaid $147,189 over a 21-year period. Her husband
died in May 1978. Although his benefits were promptly terminated, her benefits were
not converted from spouse to surviving spouse until April 1999, when the error was
identified by OQA. At the time of his death, she was dually entitled (i.e., receiving
benefits on her earnings record and that of her husband). Because TATTER was
unable to process conversion actions for dually entitled spouses, her benefits were not
adjusted. Instead, TATTER generated an exception for manual processing. However,
PC employees did not resolve the exception nor adjust her benefits. No follow-up
alerts were generated by SSA’s automated systems. Consequently, the error went
undetected for 21 years. On April 22, 1999, SSA paid an underpayment of $147,189.

Our audit disclosed that an automated edit check could have readily detected the
684 spouses and divorced spouses of deceased beneficiaries. For these individuals,
the MBR contained a BIC of “B,” which identified them as spouses and divorced
spouses of living beneficiaries. However, according to the MBR, the wage earners were
deceased. Therefore, the spouses and divorced spouses should have been converted
to a BIC of “D” (for aged surviving spouses) or “E” (for young surviving spouses with a
child in-care). Since the MBR for the wage earners indicated they were deceased and
the BICs for the spouses and divorced spouses indicated the wage earners were still
alive, the MBR contained contradictory information for these individuals.




                                            8
SSA employees informed us that the Regular Transcript, Attainment, and Selection
Pass (RETAP) program is designed to extract data from the MBR and generate alerts
for subsequent review. SSA employees11 agreed that RETAP could be used to detect
and prevent errors involving conversion of benefits for spouses and divorced spouses.
Using the information on the MBR, such a program could identify individuals receiving
spousal benefits on the earnings records of deceased beneficiaries and notify PCs to
process conversion actions and award survivor benefits.

We believe that SSA needs to take corrective action to reduce the potential for
underpayments, adverse publicity, and legal challenges. Additional controls are
required to avoid unnecessary delays in manual processing of conversion actions.
Therefore, we recommend that SSA modify RETAP to identify all individuals receiving
benefits as spouses or divorced spouses of deceased beneficiaries. SSA should also
review these cases and take appropriate action to convert benefits for spouses and
divorced spouses after the death of a wage earner.

Independently Entitled Divorced Spouses of Deceased Workers

SSA needs to improve controls over the conversion of benefits for independently
entitled divorced spouses after the death of a wage earner. The results of SSA’s
special project disclosed that 120 of the 804 individuals (14.9 percent) consisted of
independently entitled divorced spouses of deceased workers who had not applied for
benefits. Because SSA’s automated systems were unable to identify independently
entitled divorced spouses who were eligible for higher benefits upon the death of a
nonbeneficiary, these individuals did not receive the maximum benefits to which they
were entitled.

When a death report is received, FOs and PCs enter the death information into SSA’s
automated systems. For beneficiaries, death information is recorded on the MBR and
Numident. For nonbeneficiaries, death information is recorded on the Numident only.
DACUS performs a computer match to compare the death information to SSA’s
payment records. If payments have been made after the death of the beneficiary or
there is conflicting information about the date of death, DACUS generates an alert.
Follow-up alerts are generated every 30 days. These alerts require FO employees to
verify death information to detect and prevent erroneous payments.

If the worker is age 62 or over, a divorced spouse of a nonbeneficiary is independently
entitled to benefits if age 62 or over, married to the worker for at least 10 years, and
divorced for at least 2 years. Although DACUS is programmed to identify whether
deceased workers are receiving benefits, it is not programmed to identify whether other
individuals (e.g., independently entitled divorced spouses) are receiving benefits on the
earnings records of deceased workers. For these individuals, DACUS did not generate
an alert after the death of the worker. As a result, the independently entitled divorced
spouses continued to receive spousal benefits rather than survivor benefits.


11
     Staff members from OQA, Office of Systems Requirements, and Western PSC.


                                                 9
For example, one divorced spouse was underpaid $32,543 over a 4-year period. She
became independently entitled to benefits on the earnings record of her ex-husband in
March 1993. Her ex-husband, who had never applied for benefits, died in
November 1994. SSA recorded his death on the Numident in December 1994.
However, her benefits were not converted from divorced spouse to surviving divorced
spouse until March 1999, when the error was identified by OQA. Because DACUS had
not been programmed to identify individuals receiving benefits as independently entitled
divorced spouses of deceased workers, FO employees were unaware that she received
benefits on the earnings record of her ex-husband. No further action was taken until
4 years after his death. On March 31, 1999, SSA paid an underpayment of $32,543.

Our audit disclosed that DACUS should have detected the 120 independently entitled
divorced spouses of deceased workers who had not applied for benefits. Although the
independently entitled divorced spouses may have been unaware of the death of their
ex-spouses or its impact on their benefits, this did not alleviate the responsibility of the
Agency to process conversion actions for these individuals. SSA employees12 stated
that these errors were attributed to a systemic problem which precluded DACUS from
generating an alert if the deceased wage earner was not a beneficiary.

To prevent future occurrences of similar problems, it is important for DACUS to
perform a computer match of death and payment data for all beneficiaries, including
independently entitled divorced spouses. SSA employees informed us that DACUS
could be reprogrammed to: (1) identify deceased wage earners with independently
entitled divorced spouses who may be eligible for higher benefits; and (2) notify FOs
to verify death information and initiate conversion actions upon the death of a
nonbeneficiary. SSA employees agreed to incorporate these modifications into future
revisions of the DACUS program, which are currently scheduled for September 2000.

We believe that SSA needs to take corrective action to reduce the potential for
underpayments, adverse publicity, and legal challenges. Additional controls are
required to provide timely conversion of benefits for independently entitled divorced
spouses. Therefore, we recommend that SSA modify DACUS to identify all individuals
receiving benefits as independently entitled divorced spouses of deceased workers
who have not applied for benefits. SSA should also verify death information for these
nonbeneficiaries and take appropriate action to convert benefits for independently
entitled divorced spouses after the death of a wage earner.




12
     Staff members from OQA, Office of Systems Requirements, and Office of Program Benefits.


                                                   10
 CONCLUSIONS AND RECOMMENDATIONS


SSA conducted a special project and determined that spouses and divorced spouses
did not always receive the highest benefit due after the death of a wage earner. The
project disclosed that SSA needs more effective controls to: (1) detect and prevent
errors in converting spouses to surviving spouses upon the death of a beneficiary; and
(2) identify independently entitled divorced spouses who were eligible for higher
benefits upon the death of a nonbeneficiary. As a result, SSA paid underpayments
totaling $22.3 million to 700 beneficiaries as of December 16, 1999. The average
underpayment was $31,921 and 15 underpayments were over $100,000. In addition,
because SSA’s special project was limited to beneficiaries in current pay status, there
are other spouses and divorced spouses who died prior to identification by the Agency,
resulting in potential underpayments to their relatives or estates.

Although we commend SSA for identifying and resolving the underpayments, the
Agency could improve its controls to ensure that spousal benefits are properly
converted to survivor benefits after the death of a wage earner. These controls should
address spouses and divorced spouses of deceased beneficiaries and independently
entitled divorced spouses of deceased workers who have not applied for benefits.
Accordingly, we believe that systems enhancements are necessary to detect and
prevent underpayments and provide reasonable assurance that all spouses and
divorced spouses receive the maximum benefits to which they are entitled. Therefore,
we recommend that SSA:

1. 	 Modify RETAP to identify all individuals receiving benefits as spouses or divorced
     spouses of deceased beneficiaries.

2. 	 Review these cases and take appropriate action to convert benefits for spouses and
     divorced spouses after the death of a wage earner.

3. 	 Modify DACUS to identify all individuals receiving benefits as independently entitled
     divorced spouses of deceased workers who have not applied for benefits.

4. 	 Verify death information for these nonbeneficiaries and take appropriate action to
     convert benefits for independently entitled divorced spouses after the death of a
     wage earner.

AGENCY COMMENTS
In its response, SSA agreed with all of our recommendations. SSA acknowledged that
modifications to RETAP are needed to enhance controls over the conversion of benefits
and ensure that spouses (including those in suspended payment status) receive the
highest benefit after the death of a wage earner. SSA is currently in the process of


                                            11
determining what modifications are needed, developing the output format, and resolving
how FOs will process and review the output. SSA estimates these issues will be
resolved by December 2000 and RETAP will be modified within 90 days thereafter.
SSA agreed to review the cases identified by the modifications to RETAP and ensure
that appropriate action is taken to convert benefits for spouses and divorced spouses
after the death of a wage earner.

Beginning September 30, 2000, SSA agreed to implement modifications to DACUS
(Release 2) to identify and generate alerts for all individuals receiving benefits as
independently entitled divorced spouses of deceased workers who have not applied for
benefits. Upon receipt of a death report for a wage earner who has not yet filed for
OASDI benefits, DACUS will: (1) search the MBR for any independently entitled
divorced spouses on the worker’s earnings record; and (2) generate an alert to the field
office to convert eligible payments to survivor benefits. SSA stated that it would issue
interim instructions for the FOs before this workload is generated.

SSA also provided technical comments that have been incorporated into the final report.
The full text of SSA’s comments is included in Appendix B.




                                           12
APPENDICES

                                                               APPENDIX A


                     ACRONYMS


Act      The Social Security Act


BIC      Beneficiary Identification Code


DACUS    Death Alert, Control, and Update System


FO       Field Office


MBR      Master Beneficiary Record


OASDI    Old-Age, Survivors and Disability Insurance


ODIO     Office of Disability and International Operations


OQA      Office of Quality Assurance and Performance Assessment


ORES     Office of Research, Evaluation, and Statistics


PC       Processing Center


PIA      Primary Insurance Amount


PSC      Program Service Center


RETAP    Regular Transcript, Attainment, and Selection Pass


SSA      Social Security Administration


TATTER   Terminating, Attainments, Transfers, and Terminations

                   APPENDIX B


AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
"CONVERSION OF BENEFITS FOR SPOUSES AFTER THE DEATH OF A WAGE
EARNER" (A-09-99-62009)

Recommendation 1

Modify Regular Transcript Attainments and Selection Pass (RETAP) to identify all individuals
receiving benefits as spouses or divorced spouses of deceased beneficiaries.

Comment

We agree. RETAP modifications are needed to enhance controls over the conversion of benefits
and ensure that spouses (including those in suspended payment status) receive the highest benefit
after the death of a wage earner. We are in the process of determining what RETAP
modifications are needed, developing the output format, and resolving how the output will be
processed/reviewed in the field. We expect these details to be resolved by December 2000, with
changes to RETAP occurring approximately 90 days later.

Recommendation 2

Review these cases and take appropriate action to convert benefits for spouses and divorced
spouses after the death of a wage earner.

Comment

We agree to review cases identified by the modified RETAP selections and ensure that
appropriate action is taken to convert benefits for spouses and divorced spouses after the death of
a wage earner.

Recommendations 3 and 4

Modify the Death Alert Control and Update System (DACUS) to identify all individuals
receiving benefits as independently entitled divorced spouses of deceased workers who have not
applied for benefits.

Verify death information for these nonbeneficiaries and take appropriate action to convert
benefits for independently entitled divorced spouses after the death of a wage earner.

Comment

We agree. Beginning September 30, 2000, SSA will implement modifications to DACUS
(Release 2) to identify these cases and generate alerts. Following the receipt of a report of death
for a wage earner who has not yet filed for title II benefits, DACUS will search the MBR for any
independently entitled spouses on the record and generate an alert to the field office to convert
payment to survivor benefits. Interim instructions will be issued for field offices before this
workload is generated.
                                                                             APPENDIX C


                OIG CONTACTS AND STAFF

                  ACKNOWLEDGMENTS


OIG Contacts

    William Fernandez, Director, Program Benefits Audit Division, (510) 970-1739

    Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments

In addition to those named above:

    Jimmie R. Harris, Senior Auditor

    Cheryl Robinson, Writer-Editor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-09-99-62009.
                              DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Management Services
                             1
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1


                                             1
                                                                             Page 2

Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                       1
Chairman, Committee on Appropriations, House of Representatives                  1
Ranking Minority Member, Committee on Appropriations,
 House of Representative                                                          1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                        1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                        1
Chairman, Committee on Appropriations, U.S. Senate                               1
Ranking Minority Member, Committee on Appropriations, U.S. Senate                1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                  1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                     1
Chairman, Committee on Finance                                                   1
Ranking Minority Member, Committee on Finance                                    1
Chairman, Subcommittee on Social Security and Family Policy                      1
Ranking Minority Member, Subcommittee on Social Security and Family Policy       1
Chairman, Senate Special Committee on Aging                                      1
Ranking Minority Member, Senate Special Committee on Aging                       1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                                 1
President, National Council of Social Security Management Associations,
  Incorporated                                                                   1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                   1
Social Security Advisory Board                                                   1
AFGE General Committee                                                           9
President, Federal Managers Association                                          1
Regional Public Affairs Officer                                                  1


Total                                                                           98
              Overview of the Office of the Inspector General


                                    Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                          Office of Executive Operations
The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance,
and public affairs. OEO supports the OIG components by providing information
resources management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this
Office coordinates and is responsible for the OIG’s strategic planning function and the
development and implementation of performance measures required by the
Government Performance and Results Act. The quality assurance division performs
internal reviews to ensure that OIG offices nationwide hold themselves to the same
rigorous standards that we expect from the Agency. This division also conducts
employee investigations within OIG. The public affairs team communicates OIG’s
planned and current activities and the results to the Commissioner and Congress, as
well as other entities.

                               Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                         Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.


                                            1
Page 2

